 MAINTENANCE AND DISPOSAL OF SEIZED AND FORFEITED ASSETS
             IN SELECTED WESTERN DISTRICTS

                             EXECUTIVE SUMMARY

      The United States Marshals Service (USMS) maintains custody for
various assets seized by agencies of the Department of Justice (DOJ). The
USMS also disposes of assets after their ownership has been forfeited to the
federal government. At the end of fiscal year (FY) 2000, the inventory of
seized and forfeited assets in USMS custody was valued at more than $800
million.

    Since 1990 the Comptroller General of the United States has designated
asset forfeiture as a high-risk area. Earlier audits by our office and the
General Accounting Office (GAO) identified significant problems in USMS
management of seized and forfeited assets.

      Although recent audit reports by GAO and others have documented
improvements in the USMS’s management of seized and forfeited assets, we
initiated this audit because asset forfeiture remains a high-risk area and we
have a continuing responsibility for audit oversight of such areas. Our
objectives were to determine whether: (1) current management practices
assure that the USMS properly secures, stores, and accounts for seized and
forfeited assets; (2) the USMS disposes of forfeited assets in a timely and
cost-effective manner; and (3) the USMS has implemented sufficient
management actions to correct prior audit findings.

     We audited sites in three western USMS districts (Southern California,
Nevada, and Arizona) where we tested USMS maintenance and disposal of
vehicles, vessels, cash/currency, and financial instruments. We also
evaluated the disposal of forfeited jewelry at a nationwide auction held in
Las Vegas, NV, in March 2001. In brief, our audit did not identify any
significant deficiencies in USMS’s management of seized and forfeited assets
in the categories we selected at the locations where we audited.

      We performed fieldwork in the Southern District of California as a
follow-up to our prior work, which had found numerous problems in that
district’s management of seized and forfeited assets. Our current audit
found significant improvements in all areas that we examined in this district.

     We performed fieldwork in the District of Nevada in conjunction with our
observation of the nationwide jewelry auction held in Las Vegas. We also
selected the District of Arizona for testing based on the volume of asset
seizure and forfeiture activity in that district. Our testing in those two


                                  -i-
districts did not find significant problems in the management of seized and
forfeited assets.

     For our testing in all the districts audited, we physically verified the
existence and location of assets, confirmed the reasonableness of their
valuation, and tested whether the USMS promptly disposed of assets after
forfeiture. Our methodology included -- as appropriate for the size of the
universe of assets at each location -- statistical sampling, judgmental
sampling, and 100 percent review. In the tests on assets using statistically
selected samples we noted no exceptions; consequently, we are able to
state with 95 percent confidence that errors, if any, at the locations tested
would not exceed 5 percent of the universe in question. In each instance
where we used judgmental sampling or 100 percent review, we were able to
account for all selected assets.

      Our testing in the three districts also disclosed that the valuation of
assets in the Consolidated Assets Tracking System was generally reasonable,
and we found that the USMS generally disposed of forfeited assets in a
timely manner.

     Our audit objectives, scope, and methodology appear in Appendix III.




                                 - ii -
                                     TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1


FINDINGS ........................................................................................ 3

       VEHICLES ............................................................................... 3
       VESSELS ................................................................................. 6
       CASH/CURRENCY AND FINANCIAL INSTRUMENTS ......................... 8
       JEWELRY ................................................................................ 10


BEST PRACTICE ............................................................................... 11


APPENDICES:

I.    - STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 12

II.   - STATEMENT ON MANAGEMENT CONTROL STRUCTURE .................. 13

III. - AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY........................ 14

IV. - USMS RESPONSE TO DRAFT REPORT ........................................... 16
                                   INTRODUCTION

    The Attorney General’s Guidelines on Seized and Forfeited Property1
(Guidelines) state that:

     The [DOJ] asset forfeiture program has three primary goals:
     (1) to punish and deter criminal activity by depriving criminals of
     property used or acquired through illegal activities; (2) to
     enhance cooperation among foreign, federal, state and local law
     enforcement agencies through the equitable sharing of assets
     recovered through this program; and, as a by-product, (3) to
     produce revenues to enhance forfeitures and strengthen law
     enforcement.

     The Guidelines also state that “the integrity of the entire forfeiture
program depends upon the faithful stewardship of forfeited property and the
proceeds thereof.” This stewardship is exercised through the USMS, which
has primary responsibility for the maintenance and disposal of seized and
forfeited property. Our audit was designed to test USMS performance of its
responsibilities with regard to selected categories of assets at certain
locations.

     We initiated the audit as part of our continuing responsibility for
oversight of a program that has been listed by the Comptroller General as a
high-risk area since 1990. Our office and the General Accounting Office
(GAO) have issued numerous audit reports critical of USMS management of
seized and forfeited assets.2 Recently, however, both GAO and the
independent auditors who performed the financial statement audits for DOJ
have issued more favorable reports.3

     We designed our audit to examine the current practices of the USMS
and follow up on key issues from prior audit reports. Of particular concern
was the management of seized and forfeited vehicles in San Diego, CA.
Because of the numerous findings in our 1994 report, we considered it

       1
           July 1990.
       2
          Our March 1994 report, United States Marshals Service Maintenance and Disposal
of Seized Assets, 94-14, documented serious deficiencies, such as the failure to dispose of
forfeited assets promptly and to exercise due care in monitoring the performance of service
providers at several USMS districts.
       3
         For example, in 1999 GAO issued a report, ASSET FORFEITURE: Marshals Service
Controls Over Seized Assets, GAO/GGD-99-41, with no significant adverse findings based on
audit work at four large USMS districts.



                                           -1-
necessary to include San Diego in the sites for our current review and to
examine the current practices with regard to vehicles in that district. We
also performed audit work at Las Vegas, NV, and three sites in the District of
Arizona.4

      We tested the following asset categories at each location: vehicles,
vessels, cash/currency, and financial instruments. We also tested jewelry
but only at a nationwide auction held in Las Vegas. On a national basis the
assets in these categories were valued at $696,081,000, or more than 85
percent of the dollar value of all asset categories in USMS custody at the end
of fiscal year (FY) 2000.


            DOLLAR VALUE OF ASSETS IN CUSTODY AT SEPTEMBER 30, 2000


        CATEGORY               SEIZED          FORFEITED            TOTAL         PERCENT

 Cash                       $ 298,189,000     $   58,045,000     $ 356,234,000         43.72

 Financial Instruments        226,033,000         13,882,000       239,915,000         29.44

 Jewelry                         9,004,000         2,657,000        11,661,000          1.43

 Vehicles                      58,251,000         24,758,000        83,009,000         10.19

 Vessels                         3,542,000         1,720,000         5,262,000           .65

 SUBTOTAL                    595,019,000       101,062,000       696,081,000          85.43

 All Others                    77,307,000         41,407,000       118,714,000         14.57

 TOTAL                     $672,326,000       $142,469,000      $814,795,000        100.00

 Source: OIG Analysis of Data from JMD Asset Forfeiture Management Section




        4
         We performed fieldwork at the District Office in Las Vegas in conjunction with our
observation of a nationwide auction sale of forfeited jewelry held in that city in March 2001.
We selected the District of Arizona based on its relatively high volume of seized and
forfeited vehicles in custody. We performed field work at the District Office in Phoenix and
the suboffices in Tucson and Yuma.



                                             -2-
                                           FINDINGS

       We audited the USMS maintenance and disposal of seized and forfeited
       vehicles, vessels, cash/currency, financial instruments, and jewelry at
       three western USMS districts. We tested the inventory and valuation
       of both seized and forfeited assets, and the retention of forfeited
       assets. For the asset categories tested at the locations we visited, our
       audit did not identify any significant deficiencies in the USMS
       management of seized and forfeited assets. In our judgment, the
       deficiencies we identified were isolated in nature and did not reflect
       adversely on the overall management of seized and forfeited assets in
       those locations.

      We performed field work in USMS offices in the Southern District of
 California and the Districts of Arizona and Nevada. At each site we
 evaluated the maintenance and disposal of selected categories of seized
 and forfeited assets. The results of our testing for each asset category are
 described below.

 VEHICLES

       We tested seized and forfeited vehicles to determine whether:

       •    we could account for the inventory as displayed on the
            Consolidated Asset Tracking System (CATS)5 printout, “Assets On
            Hand By Storage Location”;

       •    the valuation of the vehicle, as reported in CATS, was reasonable;
            and,

       •    the USMS had retained any forfeited vehicles for excessive lengths
            of time.

       The results of our testing are discussed below.

 Vehicle Inventory was Accurately Reported

      We accounted for all seized and forfeited vehicles selected for testing
 at each of the sites where we performed audit work.


       5
        CATS is a central database that tracks seized and forfeited assets from seizure
through disposition. It is used by all the DOJ agencies involved in the asset forfeiture
program.


                                            -3-
     In our testing, we used a combination of 100 percent review,
judgmental sampling of vehicles valued at $30,000 or more, and statistical
sampling. When we conducted a 100 percent review and when we tested
judgmentally selected vehicles, we noted no exceptions. In our tests on
assets selected using statistical samples, we were able to account for each
selected vehicle and, consequently, we can state with 95 percent
confidence that errors, if any, at the locations tested would not exceed 5
percent of the applicable universe.

     The following tables display by location the number of vehicles in the
universe and their dollar valuation, and the number and dollar valuation of
the vehicles selected for testing. We divided the universe of vehicles in
custody into two groups, those that were seized and those that were
forfeited and, therefore, available for disposal.

     The USMS responsibilities for seized vehicles include secure storage so
as to preserve their value until disposal.


                                   SEIZED VEHICLES IN CUSTODY

                                                                                      PERCENT
                    NUMBER                     NUMBER      PERCENT      VALUE OF         OF
                       OF       VALUE OF       OF ITEMS    OF ITEMS      ITEMS         VALUE
    LOCATION         ITEMS      ITEMS ($)       TESTED      TESTED     TESTED ($)      TESTED
  Las Vegas, NV            9       730,958             9       100.0       730,958        100.0

  San Diego, CA           704     2,854,682         141         20.0        554,512        19.4

  Tucson, AZ              171     1,093,182           81        47.4        574,324        52.5

  Yuma, AZ6               121       158,883           59        48.8        111,252        70.0

  TOTAL                1,005     4,837,705          290         28.9     1,971,046        40.7

  Source: OIG Verification of CATS Inventory of Seized Vehicles



     After seized vehicles are forfeited, the USMS becomes responsible for
their sale, transfer to other agencies for official use, or other disposition, as
required by the forfeiture decision.




     6
         Includes two seized vehicles, valued at $9,325, stored at Blythe, CA.


                                              -4-
                           FORFEITED VEHICLES IN CUSTODY

                    43e                      NUMBER     PERCENT          VALUE OF     PERCENT
                  NUMBER       VALUE OF      OF ITEMS   OF ITEMS          ITEMS       OF VALUE
   LOCATION       OF ITEMS     ITEMS ($)      TESTED     TESTED         TESTED ($)     TESTED
 Las Vegas, NV           8        125,381           8       100.0           125,381       100.0

 San Diego, CA          309      1,023,686         89         28.8          411,134        40.2

 Tucson, AZ              23       231,276          23        100.0          231,276       100.0

 Yuma, AZ                 0              0          0               0            0           0

 TOTAL                  340     1,380,343         120        35.3          767,791        55.6

 Source: OIG Verification of CATS Inventory of Forfeited Vehicles


Vehicle Valuation was Reasonable

     For all the vehicles we tested, both seized and forfeited, we concluded
that the valuation recorded in CATS was reasonable. The USMS offices
determine the value of vehicles by obtaining the “unadjusted loan” value
from the National Automobile Dealers Association (NADA), and then
adjusting that amount for the condition of the vehicle and the presence or
absence of options. During our testing, we verified the factors that the
USMS office had used to enhance or diminish the NADA valuation, and we
concluded that in each case the USMS valuation was reasonable.

     In addition, sales data from San Diego and Tucson supported, in our
judgment, the reasonableness of the valuations reported in CATS. We
examined the results from three auction sales of vehicles held in San Diego
between January and May 2001. Each sale realized more than 100 percent
of the cumulative NADA unadjusted loan values of the vehicles sold.

     •      On January 10, 2001, 289 vehicles valued at $892,892 sold for
            total proceeds of $915,500, or 103 percent of the NADA loan
            value.

     •      On March 14, 2001, 177 vehicles valued at $487,606 sold for total
            proceeds of $645,500, or 132 percent of the NADA loan value.

     •      On May 9, 2001, 150 vehicles valued at $497,325 sold for total
            proceeds of $553,300, or 111 percent of the NADA loan value.

     We also reviewed the only recent sale at the Tucson suboffice of the
District of Arizona. At that sale, held in June 2001, the cumulative return



                                         -5-
was $129,450 for 33 vehicles valued at $161,687, or 80.1 percent of the
NADA loan value.

    In our judgment, the proceeds from these sales indicate that the
USMS generally obtained a fair market value for the vehicles sold in
San Diego and Tucson.

Forfeited Vehicles were Generally Disposed of Promptly

     The USMS guidelines require the disposal of forfeited vehicles within
120 days after forfeiture, unless they are low-value vehicles that are to be
scrapped. In the latter case, the USMS guidelines call for disposal within
60 days.

     In San Diego, 2 of the 89 forfeited vehicles we tested had remained in
USMS custody for excessive lengths of time. In one case, the delay in
disposing of the vehicle resulted from oversight. In the other instance, a
contractor’s employee damaged a vehicle that had been sold as it was
being moved from the lot. The sale was voided and the vehicle was
retained while the USMS considered how to proceed. Ultimately, the
vehicle was sold at a later date. In our judgment this incidence rate (2.2
percent) is minimal, does not indicate a pattern of mismanagement, and
does not adversely reflect on general management of forfeited vehicles in
San Diego. We noted no excessive retention of forfeited vehicles at the
other sites where we performed audit work.

VESSELS

     Our objectives in testing vessels were similar to those for our testing
of vehicles: to validate the inventory and its valuation and to evaluate
whether there were any unreasonable delays in disposing of forfeited
vessels. The results of our testing are as follows.

Vessel Inventory was Accurately Reported

    We accounted for all seized and forfeited vessels at each of the sites
we audited. Because of the limited number of vessels at those sites, we
conducted a 100 percent review in each instance.




                                    -6-
                                  TOTAL VESSELS IN CUSTODY
                                                                             PERCENT
                                               VALUE OF       NUMBER             OF
              LOCATION          NUMBER          ITEMS         OF ITEMS         ITEMS
                                OF ITEMS          ($)          TESTED         TESTED
           Las Vegas, NV7               2           9,895             2           100.0

           San Diego, CA                   7      407,070                7       100.0

           Tucson, AZ                      7         37,500              7       100.0

           TOTAL                         16      454,465             16         100.0

           Source: OIG Verification of CATS Inventory of Total Vessels


 Vessel Valuation was Reasonable

     The value of five vessels in custody in San Diego and one in Las Vegas
was determined by using the NADA Marine Appraisal Guide. The value of
two vessels in San Diego, one in Las Vegas, and all seven vessels in Tucson
was established by appraisers retained by the USMS. Based on our review
of documentation in the case files, we concluded that the valuation of all the
vessels at each of the sites was reasonable. In summary, the
documentation was as follows.

       •      The file relating to an ocean-going vessel in San Diego contained
              the report of an appraisal by a marine surveyor detailing his
              findings based on the condition of the ship and its equipment.
              Similarly, the file relating to a yacht was annotated with the
              results of an appraisal that gave both the market value
              ($155,000) and the replacement value ($280,000).

       •      The value of a jet boat in custody in Las Vegas was based on an
              appraisal by a local dealer.

       •      The seven vessels in custody in Tucson were all low-value items,
              and their values were established by appraisals. Three of the
              vessels were sold for prices that, in our judgment, supported the
              reasonableness of the appraisals.8


       7
           Includes one vessel reported in CATS under the property category “Other.”
       8
        One vessel was valued in CATS at $4,000 and sold for $3,050, the second was
valued at $3,000 and also sold for $3,050, while the third was valued at $5,000 and sold for
$3,100.



                                               -7-
Forfeited Vessels were Disposed of Promptly

     Our testing did not disclose any instances where the USMS had retained
forfeited vessels for excessive periods of time.

CASH/CURRENCY AND FINANCIAL INSTRUMENTS9

    We tested the “cash/currency” and “financial instruments” categories to
determine whether:

      •    we could account for all the inventory as displayed on the CATS
           printout, “Assets On Hand By Storage Location”; and

      •    the asset value as reported in CATS was accurate.

Inventory of Cash/Currency and Financial Instruments was
Accurately Reported

     We accounted for all seized and forfeited “cash/currency” and “financial
instrument” assets selected for testing at each of the sites where we
performed audit work.

    In selecting assets for our testing, we used a combination of statistical
sampling, judgmental sampling of assets valued at $100,000 or more,10 and
100 percent review.

     In our tests on statistically sampled assets, we were able to account for
each selected asset; consequently, we can state with 95 percent confidence
that errors, if any, at the locations tested would not exceed 5 percent of the
assets in the applicable universe. When we conducted a 100 percent review
and when we judgmentally selected certain assets for testing, we noted no
exceptions.

     The following table identifies by location the number of assets in the
universe, their dollar value, and the number and dollar value of the assets
selected for testing. Although CATS defines cash/currency and financial
instruments as separate categories, we combined them for audit purposes.


      9
        Financial Instruments include a variety of items such as money orders, bank
accounts, brokerage accounts, and shares of stock.
      10
         In addition to assets valued at $100,000 or more, we also judgmentally sampled
unusual assets such as foreign currency.



                                          -8-
                   TOTAL CASH AND FINANCIAL INSTRUMENTS IN CUSTODY


                                               NUMBER      PERCENT      VALUE OF      PERCENT
                     NUMBER      VALUE OF         OF           OF         ITEMS          OF
   LOCATION             OF        ITEMS         ITEMS        ITEMS       TESTED        VALUE
                      ITEMS         ($)        TESTED       TESTED          ($)        TESTED
 Las Vegas, NV             117    7,514,913          117        100.0     7,514,913       100.0

 San Diego, CA11          380      6,185,566         129         33.9     4,217,446           68.2

 Phoenix, AZ              171     10,071,694          92        53.8      6,907,472           68.6

 TOTAL                    668    23,772,173          338        50.6    18,639,831            78.4

Source: OIG Verification of CATS Inventory of Cash/Currency and Financial Instrument Assets



Valuation of Cash/Currency and Financial Instruments was
Accurately Reported

     When we conducted a 100 percent review and when we judgmentally
selected certain financial assets, we noted no exceptions between the CATS
valuation and the amount deposited in the Seized Asset Deposit Fund
(SADF) or otherwise in USMS custody.12

     In our tests of assets selected using statistical sampling, we were able
to verify the CATS valuation for each selected financial asset; consequently,
we can state with 95 percent confidence that inaccuracies, if any, of the
valuation of cash/currency and financial instrument assets at the locations
tested would not exceed 5 percent of the assets in the applicable universe.

Forfeited Cash/Currency was Disposed of Promptly

     Our testing of cash/currency did not disclose any instances where
forfeited assets were retained for an excessive time after forfeiture.
However, we found four instances where the USMS office in San Diego did
not make a timely disposal of forfeited financial instruments.

       •       Two airline tickets, each valued at $870.40, remained in the USMS
               office vault in May 2001 even though the USMS had received


       11
            Includes five airline tickets reported in CATS under the property category “Other.”
       12
         Seized cash is normally deposited in the SADF. We found some other financial
instruments that had been converted to cash and deposited in the SADF and some that had
been retained in their original form and secured in a USMS vault or safe deposit box.



                                               -9-
            forfeiture orders for them on October 31, 2000, and March 3,
            2001, respectively.

       •    Five cashier’s checks with a total value of $19,575 had become
            stale-dated while being stored in the USMS office vault. The
            checks were still in the USMS vault in May 2001 even though the
            USMS received a forfeiture order on November 6, 2000.

       •    A financial instrument described as a “Limited Oil Partnership
            Interest,” valued at $95,000, remained in USMS custody even
            though a Stipulation for Compromise Settlement had conveyed the
            interests to the United States as of September 29, 1986.13 In May
            2001, the USMS Headquarters was able to dispose of the asset
            and realize a return of $63,063.

    Because these appear to be isolated instances, we are not offering a
formal audit recommendation for corrective action. However, in our
judgment the USMS should evaluate the adequacy of its policies and
procedures to prevent negotiable instruments from becoming stale-dated
and to ensure the timely disposal of forfeited financial assets.

JEWELRY

      The USMS Headquarters scheduled a national auction in Las Vegas, NV
in March 2001 to dispose of forfeited jewelry and collectibles from 40 (of 94)
USMS districts throughout the country. We observed the auction, which
included 527 lots from the USMS plus more than 500 from other law
enforcement entities. A total of 152 bidders registered for the auction.

      According to a representative of the USMS Asset Forfeiture Office, the
proceeds from this auction were the third highest amount realized in the
past five years of the contract with the auctioneer. The sales proceeds of
$1,005,895 represented 95.3 percent of the appraised value of the assets
sold.

     A USMS representative at the auction told us that the high bid for
several items was below the reserve amount established by the USMS, so
those items were retained for sale at a later auction. In our judgment that
action was an appropriate measure to protect the Government’s interest in
obtaining a fair return from the sale of such assets.



       13
          An amendment to the Stipulation, dated January 29, 1991, restored a royalty
interest to the claimant.


                                          - 10 -
     Based on our observation of the auction, we concluded that the USMS
disposes of forfeited jewelry in an orderly process that obtains a reasonable
rate of return for the government. We also concluded that the centralized
sale of forfeited jewelry made it unnecessary to perform additional audit
work on jewelry at individual USMS districts.

BEST PRACTICE

     Our audit identified a noteworthy practice at three sites that in our
judgment the USMS should consider for more widespread adoption. This
practice involves the use of digital cameras to photograph vehicles.

     The USMS maintenance and disposal personnel at San Diego, Tucson,
and Yuma use digital cameras to document the existence and condition of
vehicles. We believe that creating a photographic file can protect the
interests of the government in the event that a dispute arises later on. For
example, photographs can be very helpful in establishing the condition of the
vehicle at the time of sale.

     The Tucson and Yuma offices employ comprehensive practices by taking
several exterior photographs as well as interior photographs showing the
odometer reading for all vehicles. In our judgment, establishing a
photographic record of the odometer reading is an especially noteworthy
practice.




                                    - 11 -
                                                               APPENDIX I


    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

     We have audited the USMS maintenance and disposal of seized assets.
The audit generally covered the period October 1, 2000, through June 30,
2001, and included a review of selected activities and transactions. The
audit was conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

     In connection with the audit, and as required by the standards, we
tested transactions and records to obtain reasonable assurance about the
agency’s compliance with laws and regulations that, if not complied with, we
believe could have a material effect on program operations. Compliance
with laws and regulations applicable to maintenance and disposal of seized
assets is the responsibility of USMS management.

    Our audit included examining, on a test basis, evidence concerning laws
and regulations. The specific laws for which we conducted tests are
contained in 21 USC § 881 (Forfeitures) and The Attorney General’s
Guidelines on Seized and Forfeited Property, July 1990.

    Our tests indicated that, for the assets and records tested, the USMS
generally complied with the provisions of applicable laws, and guidelines,
except as noted in the report.

     With respect to those transactions not tested, nothing came to our
attention that caused us to believe that USMS management was not in
compliance with applicable laws.




                                    - 12 -
                                                               APPENDIX II


         STATEMENT ON MANAGEMENT CONTROL STRUCTURE

     In planning and performing our audit of the USMS’s maintenance and
disposal of seized assets, we considered the management control structure
for the purpose of determining our audit procedures. This evaluation was
not made for the purpose of providing assurance on the USMS’s overall
management control structure. However, we noted certain matters
involving the management control structure and operation of the USMS’s
maintenance and disposal activities that we consider to be reportable
conditions under generally accepted government auditing standards.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design and operation of the management
control structure that, in our judgment, could adversely affect the USMS’s
ability to manage the maintenance and disposal of seized assets.

      Our audit identified the following deficiency: controls were not
sufficient in San Diego to prevent seized checks from becoming stale-dated
while in USMS custody.




                                    - 13 -
                                                                   APPENDIX III


              AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

     We reviewed laws, regulations, and guidelines relating to the
maintenance and disposal of seized and forfeited assets, and we reviewed
the reports of audits performed since we issued our report, United States
Marshals Service Maintenance and Disposal of Seized Assets, 94-14, March
1994. Our audit purpose was to examine current USMS practices and to
follow up on significant findings from prior audits conducted by our office
and others.

     Since 1990, the Comptroller General of the United States has
designated the DOJ asset forfeiture program as a high-risk area.14 Recent
audits, however, have found significant improvements in the USMS
management of seized and forfeited assets. For example, after testing
several asset categories at four USMS districts, GAO issued a report in 1999
that described only relatively minor discrepancies in the CATS database.

    We conducted audit work at USMS Headquarters in Washington, DC,
and at the District Offices in Las Vegas, NV; San Diego, CA; and, Phoenix,
AZ. We also performed testing at the suboffices in Tucson and Yuma, AZ.

     We selected the following categories for testing: vehicles, vessels,
cash/currency, financial instruments, and jewelry. At the end of fiscal year
2000, these categories accounted for more than 85 percent of the dollar
value of all seized and forfeited assets in USMS custody.

     We performed our audit in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States and,
accordingly, included such tests of records and procedures as we considered
necessary. The scope of our audit included a review of current USMS
practices and testing of selected assets on hand at the time of our visit to
each location (generally between March and June 2001).

     The techniques used for asset sample selection for testing included
statistical sampling, judgmental sampling, and 100 percent review. We
employed statistical sampling for: seized vehicles in San Diego, Tucson, and
Yuma; forfeited vehicles in San Diego; cash/currency in San Diego; and,



      14
       ASSET FORFEITURE: Marshals Service Controls Over Seized Assets,
GAO/GGD-99-41, p. 1.


                                       - 14 -
cash/currency and financial instruments in Phoenix.15 In each instance, we
performed statistical sampling because the universe of each asset category
at the given locations was sufficient to make such sampling practical. The
statistical sampling designs and the test results enabled us to state with 95
percent confidence that the error rate, if any, at the locations tested would
not exceed 5 percent of the assets in the applicable universe. However, it is
important to note that the results of our statistic sampling cannot be
projected to any other USMS office or to the USMS as a whole.

     We judgmentally selected certain additional assets to those selected
using statistical sampling so that we could ensure that all high-value assets
were tested. The judgmentally selected assets included vehicles valued at
$30,000 or more; in San Diego we selected cash/currency and financial
instrument assets valued at $100,000 or more. We also judgmentally
selected certain unusual items, such as foreign currency, that in our view
merited examination.

     We reviewed 100 percent of assets wherever the universe at a given
location was small enough to enable us to test all of them.

     In performing our audit, we used data contained in CATS to identify
assets on hand and to select samples for testing. We did not audit CATS or
establish the reliability of data contained in the CATS database as a whole;
however, when the data used are viewed in context with other available
evidence, we believe the opinions and conclusions contained in this report
are valid.




       15
          In the District of Arizona, we combined cash/currency and financial instruments
into one universe for audit purposes.



                                           - 15 -
         APPENDIX IV




- 16 -
